PERSONAL CREDIT CARD DISCLOSURE – VISA®
FEATURE

VISA® PLATINUM REWARDS

VISA SIGNATURE®
PRIVATE BANKING

VISA SIGNATURE®

INTEREST RATES AND INTEREST CHARGES
Annual Percentage Rate
(APR) for Purchases

0% introductory APR for 6 months.
After that, your APR will be 11.24% . (This APR will vary with the market based on the Prime Rate.)

APR for Balance Transfers

0% introductory APR for 6 months.
After that, your APR will be 11.24%. (This APR will vary with the market based on the Prime Rate.)

APR for Cash Advances

13.24%. (This APR will vary with the market based on the Prime Rate.)

Penalty APR and When
it Applies

19.24%.

This APR may be applied to your account if you are more than 60 days late in making your required monthly
Minimum Payments. This APR will vary with the market based on the Prime Rate.
How Long Will the Penalty APR Apply? If your APRs are increased for the reason above, the Penalty APR will apply until
you make six (6) consecutive minimum payments when due.

How to Avoid Paying Interest
on Purchases

Your due date is at least 25 days after the close of each billing cycle. We will not charge you any interest on purchases if
you pay your entire balance by the due date each month.

Minimum Interest Charge

If you are charged interest, the charge will be no less than $1.00.

For Credit Card Tips from
the Consumer Financial
Protection Bureau

To learn more about factors to consider when applying for or using a credit card, visit the website of the Consumer
Financial Protection Bureau at http://www.consumerfinance.gov/learnmore.

FEES
Annual Fee

None

None

None

Transaction Fees
Balance Transfer
Cash Advances
Foreign Transaction

4% of the amount of each transfer
None
None
4% of the amount of each cash advance 4% of the amount of each cash advance 4% of the amount of each cash advance
3% of each transaction in U.S. dollars
3% of each transaction in U.S. dollars
None

Penalty Fees
Late Payment
Returned Payment

$25.00
$25.00

$25.00
$25.00

$25.00
$25.00

Other Fees
Overdraft Protection Transfer

$10.00

$10.00

None

How We Will Calculate Your Balance
We use a method called "average daily balance (including new purchases)." See your account agreement for more details.
Loss of Introductory APR
We may end your introductory APR and apply the Penalty APR if you are more than 60 days late in making your required monthly payment.
Billing Rights
Information on your rights to dispute transactions and how to exercise those rights is provided in your account agreement. All Annual Percentage Rates (APRs) are based on the
Prime Rate or Index Rate in effect as of the date of publication, January 2021. This information may have changed after that date. To find out what may have changed, call us at
800.788.4578 or write us at P.O. Box 2127, Spokane, WA 99210-2127.
Cash Advances
If you use your account for Overdraft Protection, we will automatically transfer available* funds from your account in increments of $10 to cover an overdraft. The amount
transferred is subject to the cash advance interest rate and interest will begin to accrue immediately upon transfer. Transfers may take up to 2 business days to post to your Credit
Card account. * Please note that transfers may exceed available credit upon posting. See your Credit Card Agreement for additional details regarding credit limit.
Department of Defense Consumer Credit Disclosure
Federal law provides important protections to members of the Armed Forces and their dependents relating to extensions of consumer credit. In general, the cost of consumer
credit to a member of the Armed Forces and his or her dependent may not exceed an annual percentage rate of 36 percent. This rate must include, as applicable to the credit
transaction or account: the costs associated with credit insurance premiums; fees for ancillary products sold in connection with the credit transaction; any application fee charged
(other than certain application fees for specified credit transactions or accounts); and any participation fee charged (other than certain participation fees for a credit card account).
My payment obligation for my loan is as follows: My payment schedule will be monthly with a minimum payment of 3% of the total balance or $10, whichever is greater.
I may call 855.682.0794 toll-free to receive the contents of this disclosure orally.

watrust.com · 800.788.4578 · Member FDIC
21-BWPS-117341 REV 1/21

